David Mitcham
First Assistant

500 Jefferson St., Suite 600
Houston, Texas 77002

HARRIS COUNTY DISTRICT ATTORNEY
KIM OGG

October 24, 2019
Supreme Court of the United States
Office of the Clerk
Scott S. Harris, Clerk
1 First Street, N.E.
Washington, DC 20543
Re: Diego Baldemar Islas v. The State of Texas – No. 19-156
Dear Mr. Harris,
Diego Baldemar Islas, Petitioner, has filed a petition for a writ of certiorari in the
above-entitled and numbered cause of action. The Court has requested that my
office file a response on or before October 28, 2019.
Pursuant to Rule 30.4 of the Rules of the Supreme Court, I am hereby requesting
that the time within which to respond to the petition for a writ of certiorari be
extended 30 days, to and including Wednesday, November 27, 2019.
This request is made necessary by the fact that I have been engaged in the preparation
of appellate briefs in the following other cases: (1) Kiara Taylor v. State of Texas;
No. 01-18-00906-CR; (2) Daruis D. Weathersby v. State of Texas; No. 14-19-00339CR; (3) Vital Garcia v. State of Texas; No. 14-19-00086-CR; and (4) Levorne Bell
v. State of Texas; No. 01-19-00154-CR.
In addition, I have been asked to present oral argument before the Fourteenth Court
of Appeals on November 13, 2019 in Ramon Rios III v. State of Texas, No. 14-1800886-CR. Consequently, despite my due diligence and best efforts, I will be unable
to complete the Respondent’s response and have it printed in accordance with this
Court’s rules in the time currently allowed and, thus, respectfully request the
aforementioned extension of time in order to do so.
Page 1 of 2

Thank you for your time and attention to this matter.
Sincerely,
/s/ Heather A. Hudson
Heather A. Hudson
Assistant District Attorney
Harris County, Texas
Harris County District Attorney’s Office
500 Jefferson St., Suite 600
Houston, Texas 77002
Tel. (713) 274-5826
Fax (713) 755-5809
Hudson_Heather@dao.hctx.net
Counsel for Respondent
cc:

Clay S. Conrad
Looney & Conrad, P.C.
11767 Katy Freeway, Suite 740
Houston, TX 77079
Tel. (281) 597-8818
Fax: (281) 597-8284
Counsel for Petitioner

